2311 Douglas Street O ( IK 4
Omaha, Nebraska 68102

1-800-225-6964 Le ga | Briefs
(402) 342-2831 Est. 1923
Fax: (402) 342-4850

No.
LUIS ARNALDO BAEZ,
Petitioner,

Vv.
LORIE DAVIS, Director, Texas Department
of Criminal Justice (Institutional Division),

Respondent.

CERTIFICATE OF COMPLIANCE
(AMENDED)

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF CERTIORARI in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New

Century Schoolbook 12 point for the text and 10 point for the footnotes, and the brief contains 7986 words, excluding

the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 26" day of June, 2019.
Tam duly authorized under the laws of the State of Nebraska
to administer oaths.

PATRICIA BILLOTTE

;
General Notary 38243
Sit of brat ben C ble Oda he, GALE
My Commission Expires Nov 24, 2020 :

 

 

Notary Public Affiant
